No. 19-983

IN THE
Supreme Court of the United States

COLLEEN REILLY and BECKY BITER,

Petitioners
v.

CITY OF HARRISBURG, HARRISBURG CITY
COUNCIL, and ERIC PAPENFUSE, in his official
capacity as Mayor of Harrisburg,

Respondents

CERTIFICATION OF SERVICE

I, Maureen M. McBride, certify that on this date, I served a true and correct
copy of Respondents’ Brief in Opposition to Petition for Writ of Certiorari, upon the
parties required to be served, via First Class Mail, postage prepaid to:

Mathew D. Staver, Esquire
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
Counsel of Record for Petitioners

Respectfully submitted,

dais Hee 26 2020 Coe —_
MAUREEN M. MCBRIDE,

(Counsel of Record)
JAMES C. SARGENT
Lamb McErlane PC

24 East Market Street
West Chester, PA 19312
(610) 430-8000

Counsel for Respondents
